                        More Could Be Done to Make It
                        Easier for Taxpayers to Locate
                        Taxpayer Assistance Centers

                                    March 2004

                       Reference Number: 2004-40-075




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      March 26, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - More Could Be Done to Make It Easier for
                                     Taxpayers to Locate Taxpayer Assistance Centers
                                     (Audit # 200340059)


       This report presents the results of our review of the ease with which taxpayers could
       locate taxpayer services. The overall objective of the review was to determine if
       taxpayers could easily locate taxpayer services, specifically Internal Revenue Service
       (IRS) Taxpayer Assistance Centers (TAC) and Volunteer Income Tax Assistance (VITA)
       sites, when they want face-to-face tax assistance.
       The Congress passed the IRS Restructuring and Reform Act of 1998 (RRA 98)1 in part
       to ensure the IRS improved its customer service. In fact, one of the goals set in the
       RRA 98 was for the IRS to improve service to taxpayers. The IRS has since strived to
       provide America’s taxpayers with top-quality service by helping them understand and
       meet their tax responsibilities.
       Providing taxpayers with assistance at local IRS offices is key to providing top-quality
       customer service. One way the IRS accomplishes this is through its local IRS offices
       called TACs. The IRS also provides tax return preparation assistance to taxpayers that
       meet certain eligibility requirements through the VITA Program.2 Recognizing the
       importance of convenient access, RRA 98 Section 3709 requires the IRS to publish the
       telephone numbers and addresses of its local offices in local area telephone books as
       soon as practicable because every taxpayer should have convenient access to the IRS.

       1
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
       2
         The IRS trains volunteers to help people prepare basic tax returns for those with low to moderate incomes,
       individuals with disabilities, non-English speaking persons, and elderly taxpayers. The volunteers serve in the
       community at neighborhood centers, libraries, churches, shopping malls, and other convenient locations. Many
       VITA sites also offer Tax Counseling for the Elderly and free electronic filing.
                                                        2

The IRS has made significant progress in publishing the telephone numbers and
addresses of its TACs in local area telephone books and ensuring the telephone
numbers are accurate. In addition, taxpayers have several alternatives by which to
obtain the telephone numbers and addresses for local IRS offices. However, in its
efforts to provide top-quality service, the IRS could make it easier for taxpayers to locate
its TACs.
The IRS provides several alternatives for individual taxpayers to locate the TACs; for
example, through its Toll-Free Customer Service telephone number (1-800-829-1040),
its Internet site (The Digital Daily), and various publications. However, taxpayers must
navigate through an automated menu when calling the toll-free telephone number and
may not always receive accurate information. IRS employees provided correct and
complete telephone numbers and addresses for 39 (87 percent) of 45 test calls auditors
made to the IRS Toll-Free Customer Service telephone number.3 We obtained correct
addresses and telephone numbers for 42 (93 percent) of 45 selected TACs on
The Digital Daily; however, taxpayers have to use several links before obtaining a list of
the TACs by state. In addition, the IRS refers taxpayers to local offices in various
publications, but the publications do not provide taxpayers with a list of those offices.
Instead, the publications refer taxpayers to the Toll-Free Customer Service telephone
number or to an automated system that explains the IRS has local offices where the
taxpayer can obtain assistance. However, this automated system does not provide
information on how to find these local offices.
For resources outside the IRS, taxpayers can use local telephone books, Directory
Assistance, and the Internet to locate the TACs. When using these sources, we found
that not all cities have the local IRS office telephone numbers and addresses published
in the local telephone directories. The IRS is not required to publish in more than one
local telephone book in any local area. In addition, when using the major Internet
search engines, taxpayers cannot always locate accurate telephone numbers and
addresses of local IRS offices. Taxpayers should be cautioned in the use of these
sources to obtain local IRS office telephone numbers because there is no nationwide
database with all telephone numbers for all of the different Directory Assistance
services and search engines to use.
Finally, we could not determine if a taxpayer can easily locate a VITA site because the
IRS did not compile and finalize the list of VITA sites before the completion of our
testing. The IRS stated that it provides taxpayers with the locations of VITA sites
through its Toll-Free Customer Service telephone number and the TACs. The IRS does
not post the listing of VITA sites on The Digital Daily because it believes the majority of
its VITA customers do not use the Internet.
We recommended the Commissioner, Wage and Investment Division, explore methods
to improve the IRS Toll-Free Customer Service telephone service and The Digital Daily
to make it easier for taxpayers to locate local IRS offices.

3
 Our sample included 51 local IRS offices comprised of 6 field offices and 45 TACs. The field offices do not
provide face-to-face assistance and were eliminated from selected tests.
                                              3

Management’s Response: IRS management agreed with part of one of our
recommendations. IRS management estimates that less than 1 percent of toll-free
inquiries involve requests to locate local offices. As a result, they do not plan to
implement our recommendation to improve the ease of locating local IRS offices using
the toll-free telephone service. IRS management does plan to take action on part of our
second recommendation. Specifically, they plan to evaluate alternatives for redesigning
the Internet site to improve the ease of locating a local office. However, they do not
plan to include information on VITA sites in their evaluation of the Internet site design
because the majority of VITA customers do not find out about VITA sites through the
IRS. The IRS noted that maintaining up-to-date site information would require a major
commitment of resources. Management’s complete response to the draft report is
included as Appendix VI.
Office of Audit Comment: We continue to believe the IRS could make it easier for a
taxpayer to locate local IRS offices by providing this information through one of the
automated menu options. We requested documentation from IRS management that
only 1 percent of the toll-free telephone inquiries involve requests to locate local offices.
They did not provide this information.
Since Internet use in the United States is projected to increase dramatically by 2007, we
are pleased that IRS management plans to evaluate alternatives for redesigning the
Internet site to improve the ease of locating a local office. However, we believe the IRS
should include VITA site information when evaluating and redesigning its Internet site
since the projections show increased usage by the low-income population. In addition,
the IRS determined that few VITA customers used the IRS to locate a VITA site, but the
IRS included only those that had visited a volunteer site. While we still believe our
recommendations are worthwhile, we do not intend to elevate our disagreement
concerning them to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                          More Could Be Done to Make It Easier for Taxpayers
                                to Locate Taxpayer Assistance Centers




                                                  Table of Contents


Background ............................................................................................... Page 1
More Could Be Done to Make Finding
Taxpayer Assistance Centers Easier......................................................... Page 3
         Recommendation 1: ...................................................................... Page 11
         Recommendation 2: ...................................................................... Page 12

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Locating Local Offices on the
Internal Revenue Service Internet Site ...................................................... Page 18
Appendix V – Locating Local Offices on the
Social Security Administration Internet Site............................................... Page 22
Appendix VI – Management’s Response to the Draft Report .................... Page 25
             More Could Be Done to Make It Easier for Taxpayers
                   to Locate Taxpayer Assistance Centers

                            The Congress passed the Internal Revenue Service (IRS)
Background
                            Restructuring and Reform Act of 1998 (RRA 98)1 in part to
                            ensure the IRS improved its customer service. In fact, one
                            of the goals set in the RRA 98 was for the IRS to improve
                            service to taxpayers. The IRS has since strived to provide
                            America’s taxpayers with top-quality service by helping
                            them understand and meet their tax responsibilities.
                            Providing taxpayers with assistance at local IRS offices is
                            key to providing top-quality customer service. One way the
                            IRS accomplishes this is through its local IRS offices called
                            Taxpayer Assistance Centers (TAC). The IRS also provides
                            tax return preparation assistance for taxpayers that meet
                            certain eligibility requirements through the Volunteer
                            Income Tax Assistance (VITA) Program.2
                            The IRS maintains that its TACs are the one-stop resource
                            for face-to-face tax help and solutions to tax problems every
                            business day. Taxpayers seek assistance at the TACs for
                            various reasons, including:
                                •   Clarification regarding IRS notices the taxpayers have
                                    received or the tax implications of specific transactions
                                    (e.g., sale of a home, Individual Retirement Account
                                    distribution, charitable contributions).
                                •   Determination of eligibility for specific tax credits
                                    (e.g., Earned Income Tax Credit, Child Care Credit,
                                    Education Credit).
                                •   Preparation of tax returns or obtaining tax forms.
                            Recognizing the importance of convenient access, RRA 98
                            Section 3709 requires the IRS to publish the telephone
                            numbers and addresses of its local offices in local area
                            telephone books as soon as practicable. Prior to
                            implementation of the RRA 98, the IRS was not required to

                            1
                              Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                            sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                            23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                            2
                              The IRS trains volunteers to help people prepare basic tax returns for
                            those with low to moderate incomes, individuals with disabilities,
                            non-English speaking persons, and elderly taxpayers. The volunteers
                            serve in the community at neighborhood centers, libraries, churches,
                            shopping malls, and other convenient locations. Many VITA sites also
                            offer Tax Counseling for the Elderly and free electronic filing.
                                                                                             Page 1
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               publish the telephone numbers or addresses of its local
               offices and generally did not do so. However, the Senate
               Finance Committee believed every taxpayer should have
               convenient access to the IRS and submitted a statutory
               requirement that the IRS publish its local office information.
               The intent of RRA 98 Section 3709 was to make it easier for
               taxpayers and their advisors to seek local IRS assistance.
               When taxpayers call a TAC, they hear a pre-recorded
               message providing the office location and hours of
               operation, information available on the IRS toll-free
               telephone numbers, and the option for the taxpayers to leave
               detailed messages. TAC employees should retrieve
               taxpayers’ messages and respond to them within 2 business
               days.
               As of October 2003, the IRS reported that it had
               405 Section 3709 local offices. However, only 379 of the
               offices are TACs. The IRS has designated the other
               26 offices as Section 3709 field offices. Section 3709 field
               offices are locations that do not have a TAC office the
               taxpayer may walk into to receive assistance, but they are
               designated as local offices for the purpose of meeting the
               RRA 98 requirements of providing coverage.
               This audit is a follow-up review of the availability of
               telephone numbers and addresses of local IRS offices.3 The
               prior audit focused on whether telephone numbers and
               addresses for local IRS offices had been published in local
               telephone books. We reported that none of the local sites
               sampled had a local telephone number published, and a
               majority of the sites did not have a local address published.
               In addition, the IRS could not determine how many of the
               local telephone numbers and addresses had actually been
               printed in local telephone books.
               In response, the IRS agreed to immediately ensure local
               telephone numbers and addresses are provided to the IRS
               Toll-Free Customer Service function and on its public




               3
                Telephone Numbers and Addresses for Local Internal Revenue Service
               Offices Have Not Been Published in Telephone Books
               (Reference Number 2002-40-087, dated May 2002).
                                                                           Page 2
                  More Could Be Done to Make It Easier for Taxpayers
                        to Locate Taxpayer Assistance Centers

                                 Internet site, The Digital Daily,4 and to inform the taxpaying
                                 public that this information is available. The IRS also
                                 agreed to ensure contracts are obtained with local telephone
                                 carriers to have all telephone numbers and addresses
                                 published in local telephone books and to develop
                                 procedures to track and monitor the actual publishing of this
                                 information.
                                 The IRS Wage and Investment (W&I) Division Customer
                                 Assistance, Relationships, and Education office has
                                 responsibility for the TACs and VITA sites. This review
                                 was performed in the W&I Division Headquarters in
                                 Atlanta, Georgia, from August through December 2003.
                                 The audit was conducted in accordance with Government
                                 Auditing Standards. Detailed information on our audit
                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 The IRS has made significant progress in publishing the
More Could Be Done to Make
                                 telephone numbers and addresses of its TACs in local area
Finding Taxpayer Assistance
                                 telephone books and ensuring the telephone numbers are
Centers Easier
                                 accurate. In addition, taxpayers have several alternatives to
                                 obtain the telephone numbers and addresses for local IRS
                                 offices. However, in its efforts to provide top-quality,
                                 one-stop service, the IRS could make it easier for taxpayers
                                 to locate its TACs.
                                 The IRS provides several alternatives for individual
                                 taxpayers to locate TACs; for example, through its:
                                 •   Toll-Free Customer Service telephone number
                                     (1-800-829-1040).
                                 •   Internet site, The Digital Daily.
                                 •   Publications such as Your Federal Income Tax For
                                     Individuals (Publication 17) and 2003 1040 Instructions.
                                 Taxpayers may also use external sources to find a local IRS
                                 office in their community; for example, local telephone


                                 4
                                  The Digital Daily contains tax information for individuals, businesses,
                                 pension plans, government entities, tax professionals, and nonprofit
                                 organizations. It also has tax statistics, forms and publications, and a
                                 way for taxpayers to find out about their refunds.
                                                                                                  Page 3
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               books, Directory Assistance, and various Internet search
               engines.5 Taxpayers should be cautioned in the use of these
               sources to obtain local IRS telephone numbers since there is
               no nationwide database with all telephone numbers for all of
               the different Directory Assistance services and search
               engines to use.
               Auditors attempted to locate local IRS offices in various
               cities throughout the United States by judgmentally
               selecting 52 local IRS offices from the IRS’ listing of local
               offices. We first called each TAC to verify that the
               telephone numbers and addresses provided in the listing
               were correct. Of 51 telephone numbers sampled,6 all were
               correct. We then obtained the TACs’ telephone numbers
               and addresses from various sources available to taxpayers
               and compared this information with the information
               provided by the IRS listing for our sample offices.
               Toll-Free Customer Service telephone number
               Though taxpayers can call the Toll-Free Customer Service
               telephone number (1-800-829-1040) to locate a TAC, the
               taxpayer must navigate an automated menu and then speak
               to an IRS employee before obtaining the address and
               telephone number of the closest TAC. In addition, the
               taxpayer might not always receive complete or accurate
               information.
               When calling the toll-free telephone number, the caller uses
               an automated menu.7 The caller is provided three menu
               options for help:
               1. Preparing or filing individual income tax returns. This
                  option provides the caller with a second automated
                  menu from which to choose the following options:
                  (1) ordering tax forms, (2) finding addresses to mail the
                  tax return to the IRS, or (3) getting help with a tax
                  question.


               5
                 Computer software used to search data (as text or a database) on the
               Internet for specified information.
               6
                 We eliminated one office from our sample because the city we selected
               from the IRS listing does not have a TAC.
               7
                 During the filing season (generally January through April), the
               automated menu provides more options.
                                                                              Page 4
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               2. Requesting information on a tax refund or on a personal
                  tax account. This option provides the caller with a
                  second automated menu from which to choose the
                  following options: (1) requesting refund information,
                  (2) ordering transcripts on tax accounts, or (3) getting
                  answers to personal account questions.
               3. Using the business and specialty tax line or obtaining
                  the address for the IRS Internet web site.
               None of the automated menu selections provide the caller
               the option of finding a local IRS office. If the caller does
               not select any option, he or she is given two opportunities to
               have the menus repeated. If the caller still does not choose
               an option, he or she is transferred to an IRS employee who
               screens the call and who may transfer the call to the
               appropriate call assistor to answer the taxpayer’s question.
               The IRS could make it easier for a taxpayer to find local
               IRS offices by providing this information through one of the
               automated menu options. For example, when someone calls
               the Social Security Administration (SSA) toll-free telephone
               number (1-800-772-1213), the first menu option offered to
               the caller is the option to locate a local SSA office. If
               callers choose this option, they are asked to enter their zip
               code using a touch-tone telephone. The recorded message
               then provides the following information for the closest SSA
               office: telephone number, address, hours of operation, and
               directions.
               Auditors made calls to the IRS toll-free telephone number
               and asked for the telephone number and address for the
               local IRS office in 51 cities. In most instances, the screener
               transferred the auditor to an assistor; however, in 4 of the
               51 test calls, the screeners provided the information for the
               TACs’ locations.
               Auditors were provided correct information for
               45 (88 percent)8 of the 51 test calls. The breakdown of the
               call results is as follows:
               •   The nearest local office for six of the calls was a
                   Section 3709 field office. For all six of these calls, the

               8
                This includes the 6 field office calls and the 39 correct TAC calls
               (6+39=45).
                                                                                 Page 5
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

                   IRS call assistors correctly referred the auditors to the
                   closest TAC location.
               •   The nearest local office for 45 of the calls was a TAC.
                   o For 39 (87 percent) of the 45 test calls, the IRS call
                     assistors provided complete and correct addresses
                     and telephone numbers for the TACs.
                   o For 6 (13 percent) of the 45 test calls, the assistors
                     did not provide complete or accurate addresses
                     and/or telephone numbers for the TACs. For
                     example, one employee did not include “Northwest”
                     in the address, one did not provide the building and
                     suite number, and one advised the auditor the
                     telephone number was not published.
               These errors occurred because either the listing on the
               computer system used by the employees during our testing
               period was incorrect or the employee made an error when
               providing the information to the auditor.
               The Digital Daily
               The IRS provides a link on The Digital Daily home page
               labeled “Contact My Local Office” so a taxpayer can search
               for a local IRS office; however, the taxpayer must move
               through several webpages using several links before arriving
               at a webpage listing all local IRS offices in the taxpayer’s
               state.
               The IRS provides several links to the “Contact My Local
               Office” webpage. For example, not only is there a Contact
               Us link on the home page, but this link is also at the bottom
               of each IRS webpage. This link will bring the taxpayer to
               the “Contact My Local Office” webpage. This webpage
               contains a picture of the United States with a request that the
               taxpayer click on his or her state to find the listing of that
               state’s TAC addresses and telephone numbers. The listing
               provides the city, street address, hours of operation, and
               local telephone number for each TAC in the selected state.
               See Appendix IV for a detailed illustration of these links.




                                                                        Page 6
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               Using the “Contact My Local Office” webpage, auditors
               searched for the 45 selected TACs9 and obtained the correct
               addresses and telephone numbers for 42 (93 percent) of
               them. Three (7 percent) of the 45 did not have the correct
               telephone number or address posted to the Internet site.
               Although the auditors found the listing of the TACs, it took
               several steps. The SSA Internet site provides easier access
               to information on the location of its local offices. See
               Appendix V. A link labeled Find your nearest Social
               Security office is provided on the web site’s home page.
               Clicking on this link brings the customer to a webpage
               providing the following:
                       If you live in the United States and you want
                       information and directions to the Social Security
                       office nearest you, just enter your U.S. Postal
                       Service five-digit ZIP Code below and select Locate.
                       You’ll get information about your local Social
                       Security office and other agencies in your area that
                       may be able to help you.
               After entering the zip code, the customer is provided the
               office address, SSA toll-free numbers, office hours,
               directions, and a map to the local office.
               Publications
               The IRS refers taxpayers to local offices in various
               publications. However, the publications do not provide
               taxpayers with a list of local IRS offices. Instead, the
               publications direct taxpayers to the IRS Toll-Free Customer
               Service telephone number (1-800-829-1040), www.irs.gov,
               or a local telephone book under “United States Government,
               Internal Revenue Service.”
               The publications also provide taxpayers with a toll-free
               telephone number (1-800-829-4477) that provides various
               tax topics. The 1-800-829-4477 automated system also
               mentions that in certain areas the IRS has local offices
               where the taxpayer can obtain assistance. However, this
               automated system does not provide information on how to
               find the local offices.

               9
                These are the 45 of 51 original offices that were TACs. The IRS does
               not list the Section 3709 field offices on The Digital Daily.
                                                                             Page 7
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               Local telephone books and Directory Assistance
               Not all cities have the local IRS office telephone numbers
               and addresses published in the local telephone directories.
               The IRS is not required to publish in more than one
               directory in any local area. For 11 cities tested,10 3 local
               telephone directories were printed before the IRS contract
               print date. Of the remaining 8 cities:
               •    Three (38 percent) of 8 cities’ local area telephone
                    directories listed correct and complete telephone
                    numbers and addresses for local IRS offices.
               •    Four (50 percent) of 8 cities’ local area telephone
                    directories listed either the local telephone number or
                    address but not both.
               •    The remaining office (13 percent) listed neither the local
                    telephone number nor the address.11
               In most instances, local telephone numbers were listed for
               the local IRS offices using nationwide Directory Assistance
               (1-area code-555-1212). Of the 51 test calls made using
               Directory Assistance, 39 (76 percent) had a local IRS office
               number listed. Twelve (24 percent) of the 51 cities did not
               list a local IRS office or include the IRS toll-free telephone
               number. Of the 39 calls which produced telephone
               numbers:
               •    Thirty-one (79 percent) had correct telephone numbers
                    listed for the local IRS offices.
               •    Eight (21 percent) had incorrect telephone numbers.
                    Three of the eight local telephone numbers provided
                    were for other IRS offices, two were for the IRS
                    Taxpayer Advocate’s office, two did not identify a
                    company or provide voice mail, and one was for a
                    private company.
               The IRS has recently implemented a certification process to
               verify that the information in local area telephone directories
               is correct. Local IRS office managers are to quarterly certify


               10
                  We were unable to use the sample of 51 cities as originally planned.
               See Appendix I, Step VI for details.
               11
                  Percentages total to more than 100 percent due to rounding.
                                                                                Page 8
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               the accuracy of information for local IRS offices in area
               telephone directories, The Digital Daily, and Directory
               Assistance. This certification was completed in
               November 2003.
               Internet search engines
               Taxpayers cannot consistently locate accurate telephone
               numbers and addresses of local IRS offices when using
               major Internet search engines. Search engines obtain
               telephone numbers and addresses from telephone carriers
               and, like Directory Assistance, the information is dependent
               upon the telephone carriers.
               In addition, the results of an Internet search are dependent
               upon whether the taxpayers search using “IRS” or “Internal
               Revenue Service.” Many businesses use “IRS” in their
               names. This creates confusion for the taxpayers, and they
               might have to attempt several searches before locating a
               local IRS office.
               For example, auditors used Internet search engines and
               searched using:
               •    United States Government-Internal Revenue Service.
               •    United States Government-Local Area Office.
               •    Internal Revenue Service.
               •    Internal Revenue Service-Local Area Office.
               Auditors were able to locate 4 (57 percent) of the 7 local
               IRS offices, although the street addresses were not always
               provided.12
               VITA sites
               We could not determine if a taxpayer can easily locate a
               VITA site because the IRS did not compile and finalize the
               list of VITA sites before the completion of our testing. The
               IRS stated that it provides taxpayers with the locations of
               VITA sites through its:
               •    Toll-Free Customer Service telephone number
                    (1-800-829-1040).


               12
                 We chose one city from each of the seven IRS Field Assistance Areas.
               See Appendix I, Step VIII for details.
                                                                             Page 9
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               •   TACs. The TACs have access to the VITA site
                   locations through IRS computer systems, although the
                   VITA sites are not required to post the listing in the
                   TACs.
               The IRS does not post the listing of VITA sites on The
               Digital Daily. Instead The Digital Daily refers the taxpayer
               to the Toll-Free Customer Service telephone number. The
               IRS explained it believes the majority of its VITA
               customers do not use the Internet. However, the IRS has
               determined that Internet use in the United States is projected
               to increase dramatically by 2007, including increased usage
               by the low-income population. The IRS has determined
               through 2002 and 2003 customer satisfaction surveys that
               taxpayers do not usually locate VITA sites by contacting the
               IRS. Instead, taxpayers found the VITA sites by word of
               mouth (42 percent for each of the survey years), by other
               methods (23 percent for each of the survey years), or by
               various forms of advertising (29 percent and 28 percent for
               survey years 2002 and 2003, respectively). In addition,
               only 6 percent of survey year 2002 and 7 percent of survey
               year 2003 taxpayers located the sites through the IRS.
               Since 2000, the IRS has built more than 175 local coalitions.
               The IRS believes it will assist a greater number of taxpayers
               with limited resources through alignment with other
               community organizations that are financial, corporate,
               faith-based, nonprofit, social service, and government
               organizations. The IRS depends on the coalitions and
               volunteer organizations to publicize the VITA locations.
               The IRS allows these groups to either (1) use the advertising
               templates provided by the IRS or (2) develop their own
               advertising campaigns to inform taxpayers of their VITA
               site locations and the services offered.




                                                                     Page 10
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               Effect on taxpayers
               The IRS’ mission is to provide top-quality service to
               taxpayers. Its W&I Division supports this mission by
               offering products and services tailored to particular taxpayer
               needs and by providing the right services at the right time at
               the right locations. Ensuring that taxpayers are able to
               locate face-to-face taxpayer assistance is essential to
               meeting these goals.
               Taxpayers should be cautioned in the use of Directory
               Assistance and Internet search engines to obtain local IRS
               office telephone numbers. They are both dependent upon
               the information supplied by the telephone carriers. It
               appears there is no nationwide database with all telephone
               numbers.
               Since it is not always easy for taxpayers to locate the local
               IRS offices using external sources, it is even more important
               that the IRS ensure taxpayers can easily use its systems to
               locate these offices and that the available information is
               accurate. The IRS could make it easier for taxpayers to
               locate local IRS offices to receive assistance in meeting
               their tax obligations. Easy accessibility and accurate
               information are important for taxpayers seeking TAC and
               VITA sites since many of these sites are open only on
               certain days and/or with limited hours.

               Recommendations

               The Commissioner, W&I Division, should:
               1. Explore methods to improve the IRS Toll-Free
                  Customer Service telephone service to make it easier for
                  taxpayers to locate local IRS offices.
               Management’s Response: IRS management estimates less
               than 1 percent of toll-free telephone inquiries involve
               requests to locate local offices. As a result, they do not plan
               to implement our recommendation to improve the ease of
               locating local IRS offices using the toll-free telephone
               service.
               Office of Audit Comment: We continue to believe the IRS
               could make it easier for a taxpayer to find local IRS offices
               by providing this information through one of the automated
                                                                      Page 11
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

               menu options. We requested documentation from IRS
               management that only 1 percent of the toll-free telephone
               inquiries involve requests to locate local offices. They did
               not provide this information.
               2. Explore methods to improve the availability of
                  information about local IRS offices on The Digital
                  Daily.
               Management’s Response: IRS management does plan to
               take action on part of this recommendation. Specifically,
               they plan to evaluate alternatives for redesigning the
               Internet site to improve the ease of locating a local office.
               However, they do not plan to include information on VITA
               sites in their evaluation of the Internet site design because
               the majority of VITA customers do not find out about VITA
               sites through the IRS. The IRS also noted that maintaining
               up-to-date site information would require a major
               commitment of resources.
               Office of Audit Comment: Since Internet use in the United
               States is projected to increase dramatically by 2007, we are
               pleased that IRS management plans to evaluate alternatives
               for redesigning the Internet site to improve the ease of
               locating a local office. However, we believe the IRS should
               include VITA site information when evaluating and
               redesigning its Internet site since the projections show
               increased usage by the low-income population. In addition,
               the IRS determined that few VITA customers used the IRS
               to locate a VITA site, but the IRS included only those that
               had visited a volunteer site.




                                                                     Page 12
                        More Could Be Done to Make It Easier for Taxpayers
                              to Locate Taxpayer Assistance Centers

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers could easily locate
taxpayer services, specifically Internal Revenue Service (IRS) Taxpayer Assistance Centers
(TAC) and Volunteer Income Tax Assistance (VITA)1 sites, when they want face-to-face tax
assistance. To accomplish our objective, we:
I.       Determined the goals and objectives for local IRS offices by discussing them with the
         appropriate IRS official and obtained and analyzed the IRS Restructuring and Reform
         Act of 1998 (RRA 98)2 Section 3709 to determine requirements for the publishing of
         local IRS office telephone numbers and addresses.
II.      Obtained the official listing of IRS local offices and addresses from the IRS Wage and
         Investment (W&I) Division’s Field Assistance office for use in verifying the accuracy of
         telephone numbers and addresses obtained through sample tests below.
         A. Selected a judgmental sample of 52 of the 405 local IRS offices.3 A judgmental
            sample was used because we did not plan to project our results to the entire
            population. Each local office within each state was sorted alphabetically and
            assigned a number based upon its position within the state listing. Using a random
            number generator, we selected one city from each state, including the District of
            Columbia and Puerto Rico. We eliminated one office from our sample because the
            city we selected from the IRS listing does not have a TAC.
         B. Called the 51 telephone numbers selected to verify their accuracy. We also reviewed
            the recorded scripts and compared the address information in the scripts to the
            information provided in the sample for the selected cities.
III.     Determined if taxpayers can easily obtain accurate and complete telephone numbers and
         addresses to the local offices by calling the IRS Toll-Free Customer Service telephone
         number (1-800-829-1040). We called between October 14 and October 22, 2003, asked



1
  The IRS trains volunteers to help people prepare basic tax returns for those with low to moderate incomes,
individuals with disabilities, non-English speaking persons, and elderly taxpayers. The volunteers serve in the
community at neighborhood centers, libraries, churches, shopping malls, and other convenient locations. Many
VITA sites also offer Tax Counseling for the Elderly and free electronic filing.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  As of October 2003, the IRS reported that it had 405 Section 3709 local offices. However, only 379 of the offices
are TACs. The IRS has designated the other 26 offices as Section 3709 field offices. Section 3709 field offices are
locations that do not have a TAC office the taxpayer may walk into to receive assistance, but they are designated as
local offices for the purpose of meeting the RRA 98 requirements of providing coverage.
                                                                                                            Page 13
                        More Could Be Done to Make It Easier for Taxpayers
                              to Locate Taxpayer Assistance Centers

        the IRS employee for the local office in the selected 51 cities, and compared the
        information to the IRS listing obtained in Step II.
IV.     Determined if taxpayers can easily obtain local IRS office telephone numbers and
        addresses from the IRS Internet site, The Digital Daily. Using various links provided on
        the Internet site, we located the state listings of local IRS offices and determined if the
        local offices in the 45 selected cities4 were accurately listed.
V.      Determined if taxpayers can easily obtain local IRS office telephone numbers and
        addresses using various publications. We chose two publications used by individual
        taxpayers: Your Federal Income Tax For Individuals (Publication 17) and
        2003 1040 Instructions.
VI.     Determined if taxpayers can easily obtain local IRS offices telephone numbers and
        addresses from local area telephone books. We had planned to use the local libraries and
        their collection of local telephone books to do this research for the 51 sample cities.
        However, we determined that the libraries we contacted no longer maintain local
        telephone books. Therefore, we asked Treasury Inspector General for Tax
        Administration (TIGTA) managers to review their local area telephone books and
        provide copies of the IRS information pages from their area telephone books. Fourteen
        TIGTA managers completed this test. The TIGTA managers responded with copies of
        directory pages for 15 cities. A total of 11 of the 15 cities are included in the IRS listing
        obtained in Step II. These 11 cities were used to complete this test.
VII.    Determined if taxpayers can easily obtain local IRS office telephone numbers and
        addresses from nationwide Directory Assistance (1-area code-555-1212). We called
        Directory Assistance between October 14 and October 17, 2003, for the 51 selected cities
        and compared the information to the IRS listing obtained in Step II.
VIII.   Determined if taxpayers can easily obtain local IRS office telephone numbers and
        addresses from Internet search engines.
        A. Selected seven cities in which local IRS offices were located. The list of cities was
           acquired from the listing of local IRS offices obtained from the IRS. We chose one
           city from each of the seven IRS Field Assistance Areas.5 We alphabetically sorted
           the states within each of the seven areas and chose the first state on the list from each.
           The cities in which local IRS offices were located within each state were then sorted
           alphabetically, and the first city on the list from each of the seven Field Assistance
           Areas was chosen.




4
  These are the 45 of 51 original offices that were TACs. The IRS does not list the Section 3709 field offices on
The Digital Daily.
5
  Field Assistance is a function within the W&I Division Customer Assistance, Relationships, and Education office.
The W&I Division is divided into seven geographic areas for field operations.
                                                                                                          Page 14
                   More Could Be Done to Make It Easier for Taxpayers
                         to Locate Taxpayer Assistance Centers

         We originally planned to test all the sites included in the IRS listing obtained in
         Step II. However, after initial testing showed inconsistencies in the information
         obtained, we determined 100 percent testing was unnecessary.
      B. Searched four search engines familiar to the audit team using the following: “United
         States Government-Internal Revenue Service,” “United States Government-Local
         Area Office,” “Internal Revenue Service,” and “Internal Revenue Service-Local Area
         Office.”
IX.   Determined if taxpayers can easily locate VITA sites by discussing the VITA Program
      with the appropriate IRS officials. We could not determine if taxpayers can easily locate
      VITA sites through testing because the IRS did not compile and finalize the list of VITA
      sites before the completion of our testing.
X.    Analyzed and compared results to the Social Security Administration, another Federal
      Government agency that services the American public through local offices.




                                                                                          Page 15
                   More Could Be Done to Make It Easier for Taxpayers
                         to Locate Taxpayer Assistance Centers

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Robert Howes, Senior Auditor
Jean Bell, Auditor
Vacenessia Brown, Auditor
Patricia Jackson, Auditor
Andrea McDuffie, Auditor
Geraldine Vaughn, Auditor




                                                                                         Page 16
                   More Could Be Done to Make It Easier for Taxpayers
                         to Locate Taxpayer Assistance Centers

                                                                              Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment
Division SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                    Page 17
          More Could Be Done to Make It Easier for Taxpayers
                to Locate Taxpayer Assistance Centers

                                                               Appendix IV


Locating Local Offices on the Internal Revenue Service Internet Site

               Internal Revenue Service Internet Site




                            Step #1:
                            Click on the Contact Us link
                            on The Digital Daily home
                            page.




                                                                       Page 18
          More Could Be Done to Make It Easier for Taxpayers
                to Locate Taxpayer Assistance Centers


Locating Local Offices on the Internal Revenue Service Internet Site

               Internal Revenue Service Internet Site




                                   Step #2:
                                   Click on the Contact My Local Office link
                                   on the “Contact Us” webpage.




                                                                               Page 19
      More Could Be Done to Make It Easier for Taxpayers
            to Locate Taxpayer Assistance Centers


Internal Revenue Service “Contact My Local Office” Webpage




                        Step #3:
                        Click on your state or the
                        international link below.
                        See previous pages for
                        Steps #1 and #2 linking to
                        the “Contact My Local
                        Office” webpage.




                                                             Page 20
      More Could Be Done to Make It Easier for Taxpayers
            to Locate Taxpayer Assistance Centers

Internal Revenue Service “Contact My Local Office” Webpage




                      Results:
                      Clicking on a particular state will result in a list
                      of local offices located within the state.
                      Taxpayers can review the list to determine the
                      nearest local office.


                                                                             Page 21
                        More Could Be Done to Make It Easier for Taxpayers
                              to Locate Taxpayer Assistance Centers

                                                                             Appendix V


           Locating Local Offices on the Social Security Administration Internet Site

                          Social Security Administration Internet Site




Step #1:
From the
Social Security
Administration
(SSA) home page,
click on the Find
your nearest Social
Security office link.




                                                                                   Page 22
             More Could Be Done to Make It Easier for Taxpayers
                   to Locate Taxpayer Assistance Centers


Locating Local Offices on the Social Security Administration Internet Site

        Social Security Administration Office Locator Webpages




                                                                     Step #2:
                                                                     Enter customer zip
                                                                     code on the “Office
                                                                     Locator” webpage.




                                                                        Page 23
             More Could Be Done to Make It Easier for Taxpayers
                   to Locate Taxpayer Assistance Centers


Locating Local Offices on the Social Security Administration Internet Site

        Social Security Administration Office Locator Webpages




                Results:
                Office address, SSA toll-free numbers, office hours,
                directions, and map to the local office.




                                                                        Page 24
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers

                                                     Appendix VI


 Management’s Response to the Draft Report




                                                          Page 25
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers




                                                     Page 26
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers




                                                     Page 27
More Could Be Done to Make It Easier for Taxpayers
      to Locate Taxpayer Assistance Centers




                                                     Page 28
